        United States Department of the Interior

                    Office of Inspector General
                         Western Region
                            Federal Building
                     2800 Cottage Way, Suite E-2712
                        Sacramento, California 95825

 

 
                                




                 




                                            
     




        Report No. WR-EV-MOI-0008-2008                          September
                                                                      rbooth 2009
                                                       [Type the company name] 
                              i                                   [Pick the date] 
                                         United States Departm
                                                             ment of the Inte
                                                                            erior

                                                               Officee of Inspecctor General
                                                                     Western Region
                                                                               R
                                                                         Federal Buuilding
                                                                 28000 Cottage Way,, Suite E-2712
                                                                   Saacramento, Califfornia 95825
                                                                           
                                                                                                    Septeember 21, 20009

Memoranndum

To:                          Danieel L. Fletcherr
                             Directtor, Office of
                                               o Financial Managemen
                                                           M       nt

From:                        Michaael P. Colom
                                             mbo
                             Regio
                                 onal Manager

Subject:                     Evalu
                                 uation Reportt on Employyee Relocatioon, U.S. Deppartment of the
                                                                                              t Interior
                             (Repo
                                 ort No. WR-EEV-MOI-00008-2008)

         T memoraandum presennts the resultts of our evaaluation of em
         This                                                              mployee reloocations,
officiallyy known as permanent
                      p            chhange of stattion (PCS) reelocations, administered
                                                                           a          d by the
Department of the In  nterior (Depaartment). WeW performedd the evaluatiion to determ mine whetheer
Departmental Bureau    us and Officees (Bureaus)) properly addministered and managed PCS reloccation
transactioons. Althou ugh the Depaartment spent more than $57 million in fiscal yeaar 2008 on
employeee relocationss, none of thhe Bureaus used an integrrated inform   mation system
                                                                                      m to managee PCS
relocationn financial and
                      a activity-rrelated data.. As a resultt, the Bureauus are unablee to identify the
cost of inndividual PCCS relocationns without exxtensive reseearch of costt informationn from multiiple
systems anda sources. The lack of readily avaailable data not n only hinddered and lim mited our
review, itt also prevennts real-timee monitoring of the PCS relocation caseload and managemennt’s
ability too control and
                      d administer travel costs associated with
                                                             w relocatinng employeees.

       W also noted
       We             d that the Buureaus were not preparinng compreheensive travel authorizatioons
(TA) andd service agrreements (SA A) to controll PCS relocaation paymennts, and idenntified instannces
where thee Bureaus made
                   m       inapproopriate PCS payments
                                               p          orr where the benefit
                                                                        b       to thee governmennt
was quesstionable. Although
                   A           the Departmentt’s recent issuuance of a new
                                                                       n policy foor administering
PCS reloocations addrresses our cooncern relativve to prograam compliannce, the policcy must be
                    a integratedd managemennt informatioon system foor PCS relocation.
implemennted using an
Otherwisse, managemment will conntinue to adm minister the program
                                                             p       in a piecemeal fashion, rathher
than mannage the prog gram as a whhole.

MANAGE
     EMENT INFO
              ORMATION SYSTEM NEE
                                EDED

       As we began our evaluatiion,1 we disccovered that neither the Department
       A                                                             D           nor the Bureeaus
were usinng an integraated informaation system to manage PCS
                                                         P relocatiion financiall and activityy-
                                                            
1
 Our evaluuation was perfformed in accoordance with thhe “Quality Staandards for Insppections” issueed by the Presiident’s
Council onn Integrity and Efficiency.

                                                                           
 
related data. We initially requested that each of the Department’s Bureaus provide us with a list
of the employee relocations during the 18-month period ending March 31, 2008, as well as the
amount of funds obligated and expended for each move and other move-related information. At
the entrance conference, representatives of the Department and the various Bureaus reported that
they did not have systems to track and report PCS relocation costs and data by individual move,
and that it would be difficult and time consuming to compile the information from multiple data
systems and manual records. The National Park Service (NPS), which had already compiled
PCS data based on a previous request by our office, confirmed that the effort required
approximately 200 hours of staff time. Using payroll data, the National Business Center (NBC)
was able to provide us with a list of approximately 13,900 PCS payments made to Departmental
employees during the specified period. NBC’s data, however, included only payments processed
through the payroll system and excluded payments to contractors for guaranteed home sales and
other relocation services, and for moving and storage of household goods and vehicles. In fiscal
year 2008, these types of costs represented almost $38 million or 65 percent of the Department’s
total PCS relocation expenditures.

        The Department’s lack of information is not unique. In September 2005, the
Governmentwide Relocation Advisory Board2 (Board) reported that the General Services
Administration had gathered and analyzed travel data in 1998, 2000, and 2002 to meet a legal
reporting requirement, but did not publish the results of its studies because the quality of the
travel data provided by federal agencies was so poor. The report found that gathering historical
data is an expensive, labor-intensive process, and that data is rarely gathered in a way that is
accurate. The Board also reported the following:

              Generally, agencies have a mixture of independent electronic and manual records,
              but most relocation documents are manual. Therefore, managers do not have the
              “roll-up” data they need to quantify the various aspects of the relocation process.
              They do not have the information they need to manipulate data in spreadsheets
              and produce statistics and administrative reports that can help them understand,
              evaluate, and manage the relocation program. Their management vision is of the
              individual pieces of the puzzle rather than what it should be--the image of the
              whole.

        The Board report accurately depicts the Department’s current condition. We found that
the Bureaus currently do not use an integrated information system or relocation management
software, relying instead on manual systems of records to manage PCS relocations. We also
found that there was a great deal of variation in how well the Bureaus maintained their PCS files.
Some Bureaus had well-ordered sectional folders and summary sheets for payment records that
identified which relocation allowances were authorized, how much was paid for each allowance,
and other important PCS information, while other Bureaus did little more than store documents
in an accordion folder.

                                                            
2
  On July 9, 2004, the General Services Administration filed a charter in Congress to establish a Governmentwide
Relocation Advisory Board under the Federal Advisory Committee Act. The mission of the Board was to review
current policies promulgated through the Federal Travel Regulation (FTR) for relocation and associated processes,
and reimbursements and allowances for Federal relocating employees. 

                                                               2    
 
       Having an integrated management information system would greatly improve each
Bureau’s management of its relocation processes and access to its data. Such a system would
capture and link significant relocation-related dates and data from required PCS control
documents including the employee’s SA, TA, TA amendments, and any document extending or
enhancing travel allowances. The system would also collect financial information including the
amounts obligated and the dates and amounts paid to or on behalf of the employee for each travel
allowance authorized. Ready access to such data would greatly improve the ability of the
Bureaus and the Department to devise balanced strategies to reduce costs and make informed
decisions on how to address policy changes, such as the fiscal year 2009 $20 million budget
reduction for travel and relocation expenses.

TRAVEL AUTHORIZATIONS AND SERVICE AGREEMENTS INADEQUATE

        The Bureaus were not preparing comprehensive TAs and SAs. The TA informs and
protects the interests of all parties by clearly defining what relocation costs the government will
or will not pay. According to the Federal Travel Regulation (FTR), a TA should specify which
relocation benefits, or allowances, the employee has been authorized, estimate the total cost of
the relocation, and describe the procedures the employee is to follow. For the TA to serve as an
effective travel control tool, it should clearly identify each allowance authorized and the
estimated cost of these allowances. A TA should be prepared and signed timely, as the FTR
does not allow the employee to be reimbursed for any costs incurred prior to signature.
Unfortunately, no Bureaus were ensuring that these criteria were met. For example, in reviewing
60 PCS relocation files, we found the following:

    o Ten employees were paid for discretionary allowances not authorized on their TA.

    o Thirteen employees received advances that were not authorized on their TA.

    o Almost 40 percent of the TAs were not specifically authorized for all mandatory
      allowances such as the relocation income tax allowance and the miscellaneous allowance.

       The primary purpose of the SA is to establish the employee’s commitment to remain with
the government for a specified period after relocating, usually 12 months, and the obligation to
repay the government if this commitment is not met. In addition, the FTR states that the SA
should contain the employee’s name, effective date of transfer or appointment, actual place of
residence at the time of the appointment, the names of all dependents authorized to travel with
the employee, and the employee’s signature. While signed SAs were in each of the 60 files we
reviewed, none included all of the required data elements.


QUESTIONABLE PAYMENTS

       Overall, the majority of PCS-related payments to Departmental employees and relocation
contractors reviewed complied with the FTR and supplemental guidance issued by the
Department. However, some inappropriate or questionable reimbursements were made that
reduced the beneficial use of federal funds (See Appendix). For example,

                                                3     
 
    o An Office of the Secretary employee was relocated from Washington, D.C., to
      Oklahoma, for what appeared to be the benefit of the employee rather than the interests of
      the Department. The directed reassignment, which cost the Department $63,554, did not
      result in any change in the employee’s position or function. Moreover, the relocation
      returned the employee to the area where the employee graduated from college, taught
      school for a number of years, and where the employee still had family living. The
      employee then retired less than one month after completing the 12-month service period
      required to avoid repaying the relocation cost.

    o An NPS employee moving to Colorado to assume a management position was paid for
      120 days of temporary quarters subsistence expense (TQSE), 60 days of which should not
      have been paid according to the FTR. The FTR allows only extensions of TQSE beyond
      60 days for a compelling reason, defined as “an event that is beyond [the employee’s]
      control.” In this case, the employee’s family stayed in their home until their child
      completed the school year, a decision that was within the employee’s control. Because
      the employee did not have a compelling reason for requesting extensions, NPS should not
      have approved or paid $3,657 for the final 60 days of TQSE expense.

    o An NPS employee was improperly paid $1,468 for the expense of purchasing a home
      before the relocation was authorized. In this instance, the employee completed the
      purchase of a home 10 days prior to signing an SA and 15 days prior to the effective date
      of the TA. The FTR prohibits reimbursement of costs incurred before the TA is signed.

    o An Office of Surface Mining (OSM) employee was improperly paid $571 for a house-
      hunting trip taken before the TA and SA were signed and the relocation authorized.
      Since the TA must be signed before any action is taken for relocation, these costs should
      not have been reimbursed. The relocation file showed that various OSM personnel,
      including relocation personnel, knew that the expenses were incurred before
      authorization was given.

PCS POLICY REVISION

        On October 1, 2008, the Department issued a new PCS Policy Guide that significantly
tightens the requirements of PCS relocations and applies these requirements uniformly across the
Department. Specifically, the policy issued during our review –

    o Emphasizes that TQSE is not an entitlement, but a discretionary allowance to be
      authorized only when a Bureau determines it is in the best interest of the Government.
      Further, while the FTR allows payments for up to 120 days of TQSE, the new
      Departmental policy allows only 30 days plus a one-time extension of up to 30 days
      under extenuating circumstances. If a house-hunting trip is taken, the one-time extension
      is limited to just 15 days. In addition, the policy goes beyond the FTR in defining what
      situations constitute a compelling reason for authorizing an extension, going so far as to
      include a list of reasons that are not considered acceptable.

                                               4    
 
    o Limits home sale incentive payments to the smaller of (1) 3 percent of the price the third
      party relocation service contractor paid the employee for the residence, (2) the
      government savings resulting from the amended value sale, or (3) $10,000. This is
      substantially less than the 5 percent payment allowed under the FTR.

    o Clarifies that discretionary allowances must be specifically authorized on the TA and that
      all authorizations must be in writing and must be made prior to the employee incurring
      any relocation expenses.

        The Department’s new PCS policy guide has the potential to improve the administration
and continuity of the Department’s PCS relocation activities. The policy addressed areas of
program administration and alleviated much of our concern that the Bureaus might continue to
make questionable payments. We commend the Department for its proactive effort to improve
and streamline administration of the PCS relocation program, which must now be matched with
an integrated management system to provide the consistency and efficiency envisioned by the
new policy.

RECOMMENDATIONS

       To continue the progress made by the Department, we recommend the following:

    1. Implement an integrated management information system for PCS relocation that will
       allow management to actively monitor PCS relocation cases, and control and administer
       travel costs associated with relocating employees. At a minimum, the system should
       capture the approval dates and significant data from all required PCS documents,
       including the employee SA, TA, TA amendments, and any document extending or
       enhancing travel allowances, as well as the amounts obligated and the dates and amounts
       paid to or on behalf of the employee for each allowance authorized.

    2. Require the use of a standardized TA form that identifies all mandatory and discretionary
       allowances and clearly demonstrates which discretionary allowances have or have not
       been authorized.

    3. Require the use of a standardized SA form that ensures the employee provides all of the
       information required by the FTR.

        We would appreciate being kept apprised of the actions the Department takes on our
recommendations, as we will track the status of their implementation. We ask that you inform us
of the Department's planned course of action on the recommendations within 30 days.

       If you have any questions regarding this report, please do not hesitate to call me at
(916) 978-5653.




                                                 5    
 
 
                                                             Appendix

                           Monetary Impact



                                               Funds To Be Put
         Questionable Payments
                                                To Better Use

Improper Relocation                                $63,554

Extension Without Compelling Reason                $ 3,657

Reimbursement Prior to Authorization               $ 1,468

Improper Payment for House-hunting Trip            $   571

                  TOTAL                            $69,250




                                       6    
 
 




     
 
